No.

In The

Supreme Court of the United States

EROLD MARTIN PANOPIO,
Petitioner,

UNITED STATES OF AMERICA,

Respondent.

PROOF OF SERVICE

I, William M. Kent, do declare that on this date, May 14, 2021, pursuant

to Supreme Court Rules 29.3 and 29.4,1 have served the attached PETITION FOR
WRIT OF CBRTIORARI with attached Motion to Proceed In Forma Pauperis on

each party to the above proceeding, or that party's counsel, and on every other person

required to be served by depositing an envelope containing the above documents in

the United States mail properly addressed to each of them and with first-class

postage prepaid and by e-service.

Erold Panoio
71408-018
Safford FCI

P. 0. Box 9000

Safford, AZ 85548
Office of the Solicitor General
Room 5614

Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(supremectbriefs@usdoj.gov)

s/William Mallorv Kent

William Mallory Kent

